<html>
<title> - GIRLS COUNT ACT OF 2013; NAFTALI FRAENKEL REWARDS FOR JUSTICE ACT OF 2014; EMERGENCY IRON DOME REPLENISHMENT ACT; EXPRESSING CONCERN OVER PERSISTENT AND CREDIBLE REPORTS OF SYSTEMATIC, STATE-SANCTIONED ORGAN HARVESTING FROM NON-CONSENTING PRISONERS OF CONSCIENCE, IN THE PEOPLE'S REPUBLIC OF CHINA; AND EXPRESSING THE SENSE OF THE HOUSE OF REPRESENTATIVES ON THE CURRENT SITUATION IN IRAQ</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
 GIRLS COUNT ACT OF 2013; NAFTALI FRAENKEL REWARDS FOR JUSTICE ACT OF 
 2014; EMERGENCY IRON DOME REPLENISHMENT ACT; EXPRESSING CONCERN OVER 
 PERSISTENT AND CREDIBLE REPORTS OF SYSTEMATIC, STATE-SANCTIONED ORGAN 
HARVESTING FROM NON-CONSENTING PRISONERS OF CONSCIENCE, IN THE PEOPLE'S 
      REPUBLIC OF CHINA; AND EXPRESSING THE SENSE OF THE HOUSE OF 
            REPRESENTATIVES ON THE CURRENT SITUATION IN IRAQ

=======================================================================


                                 MARKUP

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                                   ON

      H.R. 3398, H.R. 5041, H.R. 5235, H. Res. 281 and H. Res. 683

                               __________

                             JULY 30, 2014

                               __________

                           Serial No. 113-200

                               __________

        Printed for the use of the Committee on Foreign Affairs


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 ______



                  U.S. GOVERNMENT PRINTING OFFICE
88-916                    WASHINGTON : 2014
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
STEVE CHABOT, Ohio                   BRAD SHERMAN, California
JOE WILSON, South Carolina           GREGORY W. MEEKS, New York
MICHAEL T. McCAUL, Texas             ALBIO SIRES, New Jersey
TED POE, Texas                       GERALD E. CONNOLLY, Virginia
MATT SALMON, Arizona                 THEODORE E. DEUTCH, Florida
TOM MARINO, Pennsylvania             BRIAN HIGGINS, New York
JEFF DUNCAN, South Carolina          KAREN BASS, California
ADAM KINZINGER, Illinois             WILLIAM KEATING, Massachusetts
MO BROOKS, Alabama                   DAVID CICILLINE, Rhode Island
TOM COTTON, Arkansas                 ALAN GRAYSON, Florida
PAUL COOK, California                JUAN VARGAS, California
GEORGE HOLDING, North Carolina       BRADLEY S. SCHNEIDER, Illinois
RANDY K. WEBER SR., Texas            JOSEPH P. KENNEDY III, 
SCOTT PERRY, Pennsylvania                Massachusetts
STEVE STOCKMAN, Texas                AMI BERA, California
RON DeSANTIS, Florida                ALAN S. LOWENTHAL, California
TREY RADEL, Florida--resigned 1/27/  GRACE MENG, New York
    14                               LOIS FRANKEL, Florida
DOUG COLLINS, Georgia                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida<greek-l>
LUKE MESSER, Indiana--resigned 5/
    20/14 noon 
SEAN DUFFY, Wisconsin-
    added 5/29/14 
CURT CLAWSON, Florida--
    added 7/9/14 

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director



                            C O N T E N T S

                              ----------                              
                                                                   Page

                               MARKUP OF

H.R. 3398, To authorize the Secretary of State and the 
  Administrator of the United States Agency for International 
  Development to provide assistance to support the rights of 
  women and girls in developing countries, and for other purposes     2
  Amendment in the nature of a substitute to H.R. 3398 offered by 
    the Honorable Steve Chabot...................................    10
  Amendment to the amendment in the nature of a substitute to 
    H.R. 3398 offered by the Honorable Edward R. Royce, a 
    Representative in Congress from the State of California, and 
    chairman, Committee on Foreign Affairs.......................    18
H.R. 5041, To require the Secretary of State to offer rewards 
  totaling up to $5,000,000 for information on the kidnapping and 
  murder of Naftali Fraenkel, a dual United States-Israeli 
  citizen, that began on June 12, 2014...........................    19
  Amendment in the nature of a substitute to H.R. 5041 offered by 
    the Honorable Edward R. Royce, the Honorable Brad Sherman, a 
    Representative in Congress from the State of California, the 
    Honorable Michael T. McCaul, a Representative in Congress 
    from the State of Texas, and the Honorable Eliot L. Engel, a 
    Representative in Congress from the State of New York........    21
H.R. 5235, To authorize further assistance to Israel for the Iron 
  Dome anti-missile defense system...............................    24
  Amendment in the nature of a substitute to H.R. 5235 offered by 
    the Honorable Eliot L. Engel and the Honorable Edward R. 
    Royce........................................................    28
H. Res. 281, Expressing concern over persistent and credible 
  reports of systematic, state-sanctioned organ harvesting from 
  non-consenting prisoners of conscience, in the People's 
  Republic of China, including from large numbers of Falun Gong 
  practitioners imprisoned for their religious beliefs, and 
  members of other religious and ethnic minority groups..........    33
  Amendment in the nature of a substitute to H. Res. 281 offered 
    by the Honorable Edward R. Royce.............................    40
H. Res. 683, Expressing the sense of the House of Representatives 
  on the current situation in Iraq and the urgent need to protect 
  religious minorities from persecution from the Sunni Islamist 
  insurgent and terrorist group the Islamic State in Iraq and 
  Levant (ISIL) as it expands its control over areas in 
  northwestern Iraq..............................................    45
  Amendment to H. Res. 683 offered by the Honorable Ted Poe, a 
    Representative in Congress from the State of Texas...........    49

                                APPENDIX

Markup notice....................................................    68
Markup minutes...................................................    69
Markup summary...................................................    71
 GIRLS COUNT ACT OF 2013; NAFTALI FRAENKEL REWARDS FOR JUSTICE ACT OF 
 2014; EMERGENCY IRON DOME REPLENISHMENT ACT; EXPRESSING CONCERN OVER 
 PERSISTENT AND CREDIBLE REPORTS OF SYSTEMATIC, STATE-SANCTIONED ORGAN 
HARVESTING FROM NON-CONSENTING PRISONERS OF CONSCIENCE, IN THE PEOPLE'S 
      REPUBLIC OF CHINA; AND EXPRESSING THE SENSE OF THE HOUSE OF 
            REPRESENTATIVES ON THE CURRENT SITUATION IN IRAQ

                              ----------                              


                        WEDNESDAY, JULY 30, 2014

                       House of Representatives,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The committee met, pursuant to notice, at 10:12 a.m., in 
room 2172 Rayburn House Office Building, Hon. Edward Royce 
(chairman of the committee) presiding.
    Chairman Royce. The committee will come to order.
    We meet today to mark up five measures. And I want to begin 
by thanking all of our committee members and staff on both 
sides of the aisle for the extensive preparation that went into 
today's markup.
    We appreciate the long hours, including those subcommittees 
that held their own markups.
    Without objection, all members may have 5 calendar days to 
submit statements for the record.
    As all members were previously noticed, we now intend to 
consider en bloc five measures and amendments provided to your 
offices earlier this week. And so, without objection, the 
following items are going to be considered en bloc: H.R. 3398, 
the Girls Count Act, with a Chabot Amendment No. 50 in the 
nature of a substitute to H.R. 3398; the Manager's Amendment 
No. 53 to that amendment; then, we have H.R. 5041, the Naftali 
Fraenkel Rewards for Justice Act, along with the Royce, 
Sherman, McCaul, Engel Amendment No. 130 in the nature of a 
substitute to H.R. 5041; we have H.R. 5235, the Emergency Iron 
Dome Replenishment Act with the Engel-Royce Amendment No. 62 in 
the nature of a substitute to H.R. 5235; we have House 
Resolution 281 expressing concern about forced organ harvesting 
in the People's Republic of China, and we have the Manager's 
Amendment No. 129 in the nature of a substitute to that House 
Resolution 281; we have House Resolution 683, lastly, on the 
urgent need to protect religious minorities in Iraq, and we 
have the Poe Amendment No. 95 to House Resolution 683.
    [The information referred to follows:] H.R. 
3398 

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


ANS to H.R. 3398/Chabot

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


ANS to ANS/Royce deg.<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

H.R. 5041 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

>ANS to H.R. 5041 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

H.R. 5235 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


>ANS to H.R. 5235 

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


H. Res. 683 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Amendment to H. Res. 683 

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Chairman Royce. And after opening remarks by myself and the 
ranking member, I will be glad to recognize any member seeking 
recognition to speak on the en bloc items here.
    Nearly one-third of children around the world have never 
had their births registered, one-third. And this has resulted 
in whole populations of children growing up in the shadows, not 
formally recognized as members of their society. These children 
cannot prove their age, their parentage, their citizenship, and 
that, of course, complicates their ability to attend school or 
receive health services.
    For girls, in particular, a lack of documentation can 
undermine existing legal protections against their being 
trafficked or made child brides. As they grow up, girls without 
an official identify face especially high barriers to education 
and to entrepreneurship.
    And that is why I want to recommend to all of you that you 
take a look at Representative Chabot's work here on House 
Resolution 3398. It is called the Girls Count Act. This bill 
supports efforts to increase birth registration worldwide by 
encouraging the State Department and the USAID to work with 
countries on improving their civil registries. The bill also 
encourages the development of laws and policies to prevent 
discrimination against girls and to improve property and 
inheritance rights for women.
    I encourage all members to support this good bipartisan 
measure.
    Next, we consider the Naftali Fraenkel Rewards for Justice 
Act of 2014, introduced by Mr. Lamborn and by Mr. Sherman.
    On June 12, 2014, three Jewish teens were kidnapped and 
murdered by Hamas terrorists. One of the boys, Naftali 
Fraenkel, was a dual American citizen. While Israel battles 
Hamas rockets from Gaza, Israeli Security Forces are searching 
for the perpetrators of these brutal killings.
    I have met with a family member of one of these young men. 
These killers must be brought to justice and we should be doing 
all we can to assist Israeli authorities to ensure that that 
happens.
    To that end, this legislation endorses the use of the State 
Department's Rewards for Justice Program, in consultation with 
Israeli authorities, to assist in this case. The Department 
considers the program to be a key tool in fighting terrorism 
and it could help in this case.
    Importantly, this legislation also includes important 
language from Mr. McCaul to ensure that the committee is kept 
fully informed about developments with the Rewards Program.
    Next, I want to thank Ranking Member Engel for his 
leadership in authoring H.R. 5235, the Emergency Iron Dome 
Replenishment Act. Scores of Israeli civilians were killed in 
their country's 2000 conflict with Hezbollah. I remember well 
the rockets slamming into Haifa when I was there. I went down 
to the Rambam Trauma Hospital. There were 600 victims in that 
one hospital alone. This was all a result of the Iranian- and 
Syrian-made rockets that the terrorist organizations used to 
target Israeli civilians.
    Today Hamas is engaged in a similar murderous effort with 
its rocket attacks at Israeli communities, again provided by 
Iran, but in this case with very little success, thanks to 
Israel's Iron Dome Antimissile Defense System. With the Iron 
Dome, Israel has reportedly intercepted Hamas' missiles with a 
once unthinkable success rate of 90 percent. This has allowed 
Israel to safeguard its population centers, its neighborhoods, 
its schools, and its hospitals. These are the targets they 
attack, not military installations. These rocket attacks--
missile attacks--always come on civilian targets. And that has 
saved innocent lives.
    Thus, we stand today not in support of continued U.S. 
assistance to Israel for the Iron Dome, but with legislation to 
ensure that this system is well-supplied and equipped to handle 
future threats.
    And I want to thank the ranking member again for leading 
this important bipartisan bill, which I am proud to cosponsor.
    In turning to House Resolution 281, the promotion of human 
rights is a task the committee takes very seriously. Regardless 
of where the violations occur, it is our solemn duty as members 
of this committee to speak up and fight for human dignity and 
for respect.
    In the People's Republic of China the horrendous practice 
of forced organ harvesting continues unabated. We know that 
prisoners sentenced to death, regardless of whether they 
received a fair trial or not, are forced to sign a piece of 
paper that supposedly demonstrates their informed consent. We 
also know that the Communist Party of China has undertaken a 
severe and brutal crackdown of Chinese citizens whose only 
crime is to exercise their natural right to practice religion.
    House Resolution 281, authored by Chairman Emeritus Ros-
Lehtinen, condemns the practice of forced organ harvesting in 
its entirety and calls on the government of the People's 
Republic of China to permit a transparent and independent 
investigation of their organ transplant system. The resolution 
also encourages the State Department to include greater detail 
on forced organ harvesting in its current reporting.
    Finally, just as importantly, this resolution encourages 
medical professionals to educate their patients about the 
dangers of transplant tourism.
    The amendment in the nature of a substitute, the Manager's 
Amendment here, builds upon the changes made by the Asia-
Pacific Subcommittee. These changes are noncontroversial and 
have the support of Falun Gong practitioners.
    And I want to thank my colleagues, Mr. Chris Smith and Mr. 
Dana Rohrabacher, for your helpful input.
    Finally, we turn to House Resolution 663, introduced by Mr. 
Vargas from California. This committee and the Terrorism and 
Middle East Subcommittees have been very active on the crisis 
in Iraq. For months we have sounded the alarm to the 
administration over ISIS's increasing strength and threat that 
ISIS poses to Iraq, to the region, and to U.S. interests.
    Allowing terrorists to grow to military strength has real 
deadly consequences, and few are feeling the terror of that 
reality more than Christians of Mosul. Mosul Christians have 
worshiped in the city for over 1,600 years, but they now have 
been given an ISIS ultimatum: Convert or die. Most have fled to 
Iraqi Kurdistan where they continue to live in jeopardy.
    This resolution reaffirms Americans' commitment to the 
universal right of religious freedom for all and urges the U.S. 
Department of State and the Kurdish regional government and the 
Iraqi Government to protect groups facing such peril under the 
current ISIS offensive.
    I now would like to go to our ranking member, Mr. Eliot 
Engel of New York, for his remarks.
    Mr. Engel. Mr. Chairman, thank you for holding this 
important markup. Thank you for the bipartisan collaboration 
you have brought to all of these measures and for working with 
me on what I consider a vital measure, the Emergency Iron Dome 
Replenishment Act.
    Since early June, Hamas and other terrorist groups have 
launched thousands of rockets against the Israeli civilian 
population centers as well as Ben Gurion Airport and the 
Israeli nuclear reactor at Dimona. In this time, the Iron Dome 
Antimissile Defense System has intercepted 492 rockets. At 
$82,000 per interception, Israel has spent more than $40 
million in 6 weeks. The Iron Dome is Israeli-developed but 
American-financed, and our financing is vital to the safety of 
the people in Israel.
    The Secretary of Defense recently requested $225 million in 
supplemental funding for Iron Dome. The Senate Appropriations 
Committee has introduced legislation that fully funds this 
request. It is time for the House to do the same. I hope that 
this authorization language puts us on the path to meeting 
Israel's needs when Israel needs us most.
    I support the Royce amendment to this legislation. This 
provision focuses on a replenishment strategy for all of 
Israel's missile threats, whether they be from Hamas, 
Hezbollah, Syria, or Iran. The amendment also adheres to the 
recent agreement between the United States and Israel to begin 
co-production of the Iron Dome interceptors and other 
components.
    I, once again, thank you, Mr. Chairman, for working with me 
on this legislation and urge my colleagues to support it.
    Let me next thank Representative Chabot for introducing the 
Girls Count Act. Around the world over a third of children 
under the age of 5 have no registration of their birth.
    You know, it is interesting because I remember my 
grandmother, who was born in Europe, telling me that she didn't 
have a birth certificate. And when I asked her when her 
birthday was, she wasn't quite sure. She said she thought it 
was sometime in December.
    So, most of these children are girls. Someone who doesn't 
exist on paper faces particular vulnerabilities. They often 
can't get official documentation and they become easy targets 
for child labor, human trafficking, and child marriage.
    H.R. 3398 will ramp up efforts to get more children 
registered. It authorizes the State Department and USAID to 
work with local governments to ensure equal access to 
registration programs. Getting children registered at birth 
helps get them off to a good start, and I urge my colleagues to 
support this bill.
    I also support H.R. 5041, the Naftali Fraenkel Rewards for 
Justice Act. Naftali Fraenkel was an Israeli-American teenager 
who loved basketball, music, and ping pong. He was on his way 
home from school when two Hamas terrorists kidnapped and 
murdered him and two other Israeli teenagers.
    The Israeli Defense Force, partnering with the Palestinian 
Security Forces, searched for the teenagers for weeks in 
Operation Brother's Keeper. Israeli authorities named two 
suspects. Both belonged to Hamas.
    We must use every tool we have to find Naftali's murderer. 
To this end, this bill would authorize the Secretary of State 
to offer and pay a reward to anyone who furnishes information 
leading to the arrest or conviction of an individual for their 
role in Naftali's kidnapping or murder. Again, Naftali was an 
American citizen. So, we have extra special reason to be 
concerned about this.
    I would like to commend Representatives Lamborn, Sherman, 
and McCaul for their work on this important issue.
    I also support H. Res. 281, introduced by my friend, Ileana 
Ros-Lehtinen, and the Royce amendment to that resolution. This 
measure shines a light on disturbing allegations that China has 
engaged in organ harvesting from prisoners, including Falun 
Gong practitioners and ethnic Uighurs.
    Forced organ harvesting is an unconscionable violation of 
human rights. The targeting of individuals based on their faith 
or ethnicity is equally deplorable and must not be tolerated.
    In 2012, Chinese authorities committed to ending the 
practice of transplanting organs from executed prisoners. Last 
year the government announced plans to create a voluntary organ 
donor system. But today we have no evidence that China is 
living up to its word on either count. I hope the State 
Department will continue its good work of reporting on human 
rights practices in China, including allegations of organ 
harvesting from political prisoners.
    And finally, I would like to thank Representative Juan 
Vargas for introducing H. Res. 663, expressing the urgent need 
to protect religious minorities in Iraq from persecution by 
ISIS. Last month the leadership of ISIS announced that the 
Christians of Mosul, Iraq's second-largest city and one of the 
world's oldest Christian communities, must convert to Islam, 
pay a protection tax, leave, or face execution. Understandably, 
most of Mosul's 35,000 Christians are fleeing to territory 
controlled by the Kurds.
    People of all faiths should be alarmed by this situation in 
Iraq. This measure reiterates our commitment to the protection 
of religious freedom and calls on the State Department to work 
with the international community to help find safe havens for 
those trying to escape ISIS. It also calls on Iraq to establish 
a special representative for religious minorities. As thousands 
suffer under the brutality of ISIS, we need to look for ways to 
protect the basic rights and dignity of all Iraqis.
    So, Mr. Chairman, thank you again for holding this markup 
and for working with us in a bipartisan manner.
    Chairman Royce. Thank you, Mr. Engel.
    We go now to members seeking recognition. I see Ileana Ros-
Lehtinen, the chairman of the legislation condemning the 
practice of forced organ harvesting on the part of the 
government of the People's Republic of China. I will recognize 
her.
    Ms. Ros-Lehtinen. Thank you very much, Mr. Chairman. And I 
would like to thank you and Mr. Engel for bringing forth these 
measures today, including the House Resolution 281, which I 
introduced last year, calling on China to end its inhumane and 
gruesome practice of organ harvesting of prisoners of 
conscience, especially the Falun Gong.
    The Communist regime in China has been engaged in a violent 
and targeted campaign against Falun Gong spiritual 
practitioners. These individuals who promote truthfulness, 
compassion, and tolerance are being detained in re-education 
and labor camps, in detention centers, in prisons, where they 
are routinely tortured, abused, and beaten. And then, they are 
executed by the regime for their organs in what has to be one 
of the most egregious and unimaginable violations of the right 
to life.
    The United States must do more to end China's wonton human 
rights violations and its persecution of Falun Gong and other 
religious minorities and prisoners of conscience. This 
resolution will raise awareness on the dire situation of human 
rights in China, and I urge my colleagues to support it.
    I also want to speak briefly on two Israel-related measures 
before us today. I was in Israel with my colleague Ted Deutch 
when the bodies of three Israeli teens, Eyal, Gilad, and 
Naftali, were found riddled with bullets, murdered by members 
of Hamas. We attended their funeral and sat Shiva with 
Naftali's family, and we told them that the United States 
Congress would support Israel in its efforts to bring justice 
to the Fraenkel family.
    Authorizing funds for the Rewards for Justice Program is a 
step in the right direction. We must also help the entire 
Israeli nation as it remains under constant threat from Hamas 
and others, as we are seeing in Gaza today. And that is why 
Ranking Member Engel's bill to authorize more assistance to 
Israel for the Iron Dome recognizes the vital need for Israel 
to defend itself and protect its citizens against the rockets 
of Hamas.
    Since Operation Protective Edge began, Hamas has launched 
over 2,600 rockets at Israel's population centers, including 
Jerusalem and Tel Aviv. But Iron Dome has shielded millions of 
innocent Israeli civilians from Hamas' indiscriminate rocket 
attacks, and we must continue to support this vital program. 
And that is why this measure is so important.
    I am also pleased to support two other human rights 
measures today, H.R. 3398, authorizing the Secretary of State 
and the Administrator of the United States Agency for 
International Development to provide assistance to support the 
rights of women and girls in developing countries, and House 
Resolution 683, on the need to protect religious minorities in 
Iraq from persecution by the terrorist group ISIL.
    Women and girls bear the lion's share of many global 
problems as poverty, being victims of human trafficking, and 
having a lack of access to education. Empowering women and 
girls throughout the world to overcome the significant 
challenges that they face and to fulfill their potential as 
valuable members of society must be a priority for the United 
States. When the rights of women and girls are protected, 
societies are better off economically and socially, and the 
world is better off because of it.
    But we must also make the protection of religious 
minorities a priority as well. What we have seen in the past 
weeks in Iraq and throughout the Middle East, including the 
crucifixion of Christians and, most recently, the ultimatum for 
Christians to pay taxes, leave, or face death, goes against 
every principle we stand for in our beloved country. This is a 
calamity that threatens the existence of all Iraq's Christians, 
and we must not allow it to continue.
    I urge my colleagues to support these measures before us 
today, and I thank you again, Mr. Chairman and Ranking Member.
    Chairman Royce. We go now to Mr. Gerry Connolly of 
Virginia.
    Mr. Connolly. Thank you, Mr. Chairman. I simply want to 
thank you and Ranking Member Engel for the way in which you 
have conducted not only this business meeting, but this 
committee. You have brought us together. You have tried to find 
common ground. You have carried everything out in a spirit of 
civility and bipartisanship, even when we do disagree. I think 
that sets a tone and a model for the Congress. I wish every 
committee would emulate what we have been able to achieve in 
this committee. And I just salute you for the style and tone in 
which you have comported yourself and set a standard for all 
the rest of us.
    I certainly join you and Mr. Engel in support for all of 
these resolutions.
    And I particularly want to thank my friend Ileana Ros-
Lehtinen for her resolution on China. The persecution of 
minorities, Christian minorities, the persecution of indigenous 
groups like Falun Gong, and the odious practice of harvesting 
organs after summary justice and executions of prisoners' 
bodies; I just think is one of the most odious practices of any 
country in the world. And I salute Ms. Ros-Lehtinen for her 
leadership of this and am delighted to join with her in support 
of the legislation.
    One final thing, Mr. Chairman. Mr. Chabot and I are today 
introducing the Crimea Non-Recognition Act. It is a very simple 
bill, four paragraphs, but it is Congress directing the U.S. 
Government that it must not, cannot recognize in any way, 
shape, or form the illegal annexation of Crimea. I am going to 
be circulating that bill with Mr. Chabot in a ``Dear 
Colleague.'' Any of our colleagues who would like to get on the 
bill, just let us know. We will be glad to give you a copy and 
put you on.
    Thank you, Mr. Chairman. I yield back.
    Chairman Royce. Thank you.
    We go to the chairman of the Asia Subcommittee, Mr. Steve 
Chabot of Ohio.
    Mr. Chabot. Thank you, Mr. Chairman, and thank you for 
calling this important markup today.
    I would like to, before I get into my remarks on H.R. 3398, 
thank Mr. Connolly for his leadership on the Crimean Act. He 
came to me on that issue, and he has been the primary driver on 
it, and I commend him for that, working on it in a bipartisan 
manner.
    I also would like to reiterate his comments about the way 
you have handled this committee. I know it means a lot more 
when it comes from somebody on the other side of the aisle, but 
Mr. Connolly is exactly right, which I wouldn't say all the 
time. But Foreign Affairs----
    Mr. Connolly. It only hurts the first time, Steve. 
[Laughter.]
    Mr. Chabot. I know. That is a good point.
    But on this committee we do have a tendency to agree. I 
have seen you on another committee on TV sometimes, and I have 
to say I don't necessarily agree with you there. But, in any 
event, I do think, Mr. Chairman, that you have gone out of your 
way to make this committee actually work. You know, they talk 
about Congress being dysfunctional. This committee clearly is 
not and I think does work in a bipartisan manner for the best 
interests of the country. And I think the American people are 
well-served by that, and you are a driving force in that. So, 
thank you.
    And I am supportive of all the measures before the 
committee today. I will just focus for a moment on H.R. 3398, 
which a number of other members have already mentioned, the 
Girls Count Act of 2013, which I introduced along with 44 of my 
colleagues, including about a dozen members on this committee, 
bipartisan.
    It is estimated that there are 230 million children across 
the globe whose births were never recorded. It is particularly 
acute in Africa. The lack of a birth certificate restricts the 
ability of children from engaging in a number of fundamental 
rights which we take for granted here in the United States.
    In order to address this issue, H.R. 3398 directs the 
Department of State and USAID to provide technical assistance 
to develop a birth registry/birth certificate program. Helping 
to ensure that every child has a birth certificate will aid in 
a host of areas, including, but not limited to, access to 
voting rights, land tenure rights, health services, education, 
and will help support efforts to thwart human and sex 
trafficking, and aid in identifying displaced persons. H.R. 
3398 would also aid in international adoption cases.
    Despite the fact that almost all countries require some 
type of birth registration prior to the government's issuance 
of identifying documents, like a birth certificate or driver's 
license, nearly one-third of all children under the age of five 
worldwide have never had their births registered.
    As Chairman Royce already emphasized, for girls, in 
particular, this lack of birth registration increases the 
barriers they face to receive education, healthcare, and it 
increases their vulnerability to trafficking and sexual 
exploitation.
    The legislation also authorizes the State Department and 
USAID to support programs that are designed to protect girls' 
legal rights, particularly economic and property rights, and to 
build legal and policy frameworks to prevent discrimination 
against women and girls and improve property and inheritance 
rights.
    Mr. Chairman, I support the committee amendment. I thank my 
colleagues for broad bipartisan support of the legislation. I 
urge an aye vote, and I yield back the balance of my time.
    Chairman Royce. Thank you, Mr. Chabot.
    We go now to Mr. Brad Sherman of California, ranking member 
of the Terrorism and Nonproliferation Subcommittee.
    Mr. Sherman. Well, first, I want to associate myself with 
the comments of the gentleman from Virginia in his lavish 
praise and justified praise of our chairman and ranking member. 
And I associate myself with that, in the fervent hope that that 
will lead them to support my bills as they come before the 
committee. [Laughter.]
    As to H.R. 4051, the bill introduced by Ted Cruz and 
supported by Senator Menendez in the Senate, which passed just 
a couple of days ago, and which I introduced in this House, we 
do have an amendment in the nature of a substitute. It does 
move from requiring and mandating that a reward be given for 
information leading to the appropriate treatment of those who 
killed an American, Naftali Fraenkel. And so, it does perhaps 
give the administration more leeway. But I think we ought to 
pass it in this form. It is the form that has the greatest 
consensus not only in this room, but also with the 
administration. And I am confident that the State Department 
will use this authority to seek the conviction of the criminals 
in this case.
    I support all the bills before us today, though I do want 
to bring to the committee's attention one concern I have about 
Resolution 281, dealing with China. And that appears on page 3, 
most of the way down the page, where it says, ``Whereas, 
researcher and journalist Ethan Gutmann estimates that 
approximately 65,000 Falun Gong adherents may have been killed 
for their organs from 2000 to 2008.'' If there is a general 
consensus, we could replace the words ``approximately 65,000'' 
with the words ``large numbers of.''
    And the reason I would suggest that, but I am not going to 
put it in a formal amendment, is we have reached out to the 
human rights community and we can't find anybody other than 
Ethan Gutmann that comes anywhere close to or is willing to 
support this 65,000 figure. So, while it is true that that is 
the figure given to us by Ethan Gutmann, I think the resolution 
would be better if we avoid using a figure that doesn't have 
general support in the human rights community.
    I have worked with the author on this a bit. And again, I 
am not going to offer a formal amendment.
    I will yield to the chair.
    Chairman Royce. We can probably talk after the markup today 
then.
    Mr. Sherman. We could do that as well.
    Chairman Royce. All right.
    Mr. Sherman. I yield back.
    Chairman Royce. Thank you, Mr. Sherman.
    Other members seeking recognition? We have Mr. Smith.
    Mr. Smith. Thank you very much, Mr. Chairman. First of all, 
thank you for bringing to the committee a number of very 
important pieces of legislation.
    I want to thank Chairman Chabot for his bill, the Girls 
Count Act of 2014. Documenting the birth of baby girls is 
extremely important, having accountability. It does lead to, as 
he pointed out, a greater ability for other rights to be 
exercised as that girl grows older into a young woman.
    While the bill doesn't address it, I continue to be deeply 
concerned about the missing daughters worldwide. Some estimates 
put it as large as 200 million. Mara Hvistendahl has recently 
written a book in which he documented that there are about 164 
million girls in Asia who have been killed through sex-
selection abortion; it is 200 million worldwide. And the hope 
is for greater documentation or greater affirmation of the girl 
child because gender discrimination begins in the womb. So, I 
thank him for his very important piece of legislation.
    I want to thank Chairman Emeritus Ros-Lehtinen for her very 
important bill, H. Res. 281. As the chairwoman has done many 
times in the past, as I have done many times in the past with 
the human rights subcommittee, 20 years ago we had a hearing on 
organ harvesting and Harry Wu brought an individual here who 
was a member of the Chinese police, who was smuggled out of 
China and told how people were lined up and killed in order to 
procure organs--kidneys, whatever the need was, that person was 
killed in order to obtain that organ which was, then, sold to 
someone else at a very, very high price.
    With the Falun Gong, as the chairwoman has pointed out, the 
Falun Gong have been targeted in an insidious way to harvest 
their organs. They are killed with impunity. And this 
resolution I think at long last really puts us on record as 
saying clearly and unambiguously this is something that the 
likes of Josef Mengele, Dr. Mengele, did during the worst days 
of the Nazi regime. So, I want to thank her for that important 
one.
    Juan Vargas, thank you for your resolution. We know that 
Christians are being targeted. ISIL certainly has been 
beheading, killing, and maiming Christians, raping Christian 
women. It is because they are Christians. It is genocide. And 
there has been a failure both on the Bush administration and 
now on the part of the Obama administration in speaking out 
clearly about this genocide against Christians. And I thank him 
for doing his very important resolution.
    And finally, on the issue of replenishing the protection of 
Israel by way of missiles, let's not forget that just 2 days 
ago Khaled Meshaal, leader of Hamas, told Charlie Rose, when 
asked, ``Do you want to coexist with the State of Israel?'' the 
Hamas leader said in a completely matter-of-fact manner, 
``No.'' It is clear that Hamas doesn't want peace. It doesn't 
want reconciliation. It does not want coexistence. It wants 
only the total demise of Israel.
    And let me also remind everybody, and I would encourage 
everybody to reread the Hamas Charter, which is filled with 
anti-Semitic invective. Article 13--and I just quote this in 
pertinent part--

        ``Initiatives and so-called peaceful solutions and 
        international conferences are a contradiction to the 
        principles of the Islamic Resistance Movement. There is 
        no solution to the Palestinian question except through 
        jihad. Initiatives, proposals, and international 
        conferences are all a waste of time and vain 
        endeavors.''

So says Article 13 of the Hamas Charter. So, we are kidding 
ourselves if we think there is any possibility or probability 
that a negotiation can be engaged in with people who are firing 
missiles, digging tunnels, terror tunnels.
    And again, this legislation, again put by the ranking 
member, clearly says we need to replenish the Iron Dome 
capabilities. So, the 500 missiles that have been shot down by 
that system, these missiles are not going to stop anytime soon.
    I appreciate it, and I yield back.
    Chairman Royce. Thank you.
    We go now to Mr. Ted Deutch, ranking member on the Middle 
East and North Africa Subcommittee, of Florida.
    Mr. Deutch. Thank you, Mr. Chairman. And thanks to you and 
Ranking Member Engel for once again working in a bipartisan 
fashion to bring up these good bills. And I associate myself 
with the many comments that have already been made praising 
your leadership of this committee and the way in which you 
conduct the markups and our hearings.
    I offer my support to all of today's measures, and I will 
just make some brief comments on a few.
    First, I would like to commend my friend, the ranking 
member, for his leadership on the Emergency Iron Dome 
Replenishment Act. I am proud to cosponsor this critical piece 
of legislation that will authorize the administration to 
provide additional support for Israel's Iron Dome Missile 
Defense System that is saving the lives of tens of thousands of 
Israeli civilians every single day.
    For the past 23 days, rockets have rained down from Negev 
to the Galilee and Eilat and Sderot, in Jerusalem and in Tel 
Aviv. Iron Dome has intercepted nearly 90 percent of rockets 
before they could strike their intended targets, homes, 
schools, airports, hospitals. It doesn't really matter where 
they land to the Hamas terrorists who fire them.
    The vital partnership between the United States and Israel 
on missile defense is the single reason Israeli civilians' 
lives aren't lost every single day. And hardly a day goes by 
that we don't hear messages of thanks from the Israeli people.
    I would also like to thank Chairman Royce and Mr. Sherman 
for their work on the Naftali Fraenkel Rewards for Justice Act. 
It seeks to hold accountable those responsible for the heinous 
murder of an Israeli-American teen.
    Chairman Emeritus Ros-Lehtinen and I were in Israel to 
mourn with the Fraenkel family at Naftali's funeral and at 
their home. This family and the families of Eyal and Gilad 
deserve justice for this senseless act of terror.
    Finally, I offer my strong support to the resolution 
introduced by my friend, Mr. Vargas, expressing the urgent need 
to protect religious minorities in Iraq. The Islamic State of 
Iraq and the Levant's march through Iraq has terrorized 
millions, with over 1,000 killed in June alone and nearly 2.8 
million Iraqis displaced.
    The persecution of Christians in Mosul, including the 
violent removal of families from their homes, and the threats 
to either pay taxes, convert, or die, has caused thousands to 
flee to Kurdish-protected areas. The Christian community in 
Iraq has existed and thrived for 2,000 years. Prime Minister 
Maliki has condemned the violence against Christians, but he 
must do more to protect them.
    And this Congress must speak out for religious tolerance 
and freedom in every corner of the world.
    Again, I would like to thank all my colleagues for their 
work on today's measures, and I commend the chairman for 
continuing to work in a bipartisan way. And I yield back.
    Chairman Royce. Thank your, Mr. Deutch.
    We now go to Mr. Ted Poe, Judge Ted Poe, who is chairman of 
the Terrorism and Nonproliferation Subcommittee.
    Mr. Poe. Thank you, Mr. Chairman.
    I would like, first, to talk about the persecution of 
religious minorities bill. I want to also commend Mr. Vargas 
for this legislation.
    In Iraq, especially where ISIL is, it is open season on 
Christians. Christians are being murdered, threatened, and 
persecuted by this radical terrorist organization. The world 
needs to be aware that persecution of Christians occurs in many 
places, but right now it is occurring in Iraq.
    And I also want to thank the chairman for his support of my 
amendment in this legislation that takes out the phrase ``Prime 
Minister Maliki's government,'' takes his name out. It 
shouldn't be his government. He has got to go. So, that 
amendment will just say ``the Iraqi Government,'' instead of 
``Prime Minister Maliki's government.''
    I also want to comment on the legislation by the chairman 
and the ranking member regarding Iron Dome. I was in Israel 
last year. I saw the operation of one of those batteries of 
Iron Dome. It needs to be clear to Americans and the rest of 
the world that the Iron Dome is a defensive missile system. A 
defensive missile system that shoots down rockets that come 
into Israel, Iranian rockets that come from Gaza shot by Hamas. 
It is not an offensive weapons system. They are trying to 
defend their homeland from this terrorist organization, and 
Iron Dome works. We need to support them, not with just more 
materials, but verbally and politically, and let the world know 
the United States stands by Israel's right of self-defense.
    Hamas wants to destroy Jews, wants to destroy Israel. That 
is why they are attacking them. And every time there is a 
ceasefire by so-called world leaders, Hamas reloads. They get 
more missiles from Iran, and then they are ready for the next 
round of missiles to be fired into Israel.
    Hamas needs to be defeated. They are not a country. They 
are a bunch of thugs and terrorists who want to eliminate the 
Jews in Israel. They should be recognized as such. And they are 
a foreign terrorist organization. We need to deal with them 
accordingly.
    So, I commend the Israelis for defending their country 
because it is the absolute right of every nation to be left 
alone. And that is all the Israelis want to do, is be left 
alone. Whether it is Hamas or whether it is Hezbollah or 
anybody else, we should support them materially, politically, 
and verbally for doing what any country ought to do, is to 
protect their people from criminals and terrorists.
    And I will yield back with that, Mr. Chairman.
    Chairman Royce. Mr. David Cicilline of Rhode Island.
    Mr. Cicilline. Thank you, Mr. Chairman. I want to begin by 
thanking you and Ranking Member Engel for your continued 
commitment to working across the aisle and for marking up 
legislation before we recess for a month on these important 
subjects.
    I am particularly glad to see forward momentum on a number 
of important bills, such as House Res. 281, expressing concern 
over persistent and credible reports of systemic, state-
sanctioned organ harvesting; H.R. 3398, the Girls Count Act, 
and all of the other bills that we are considering today.
    In particular, I want to thank the chairman and the ranking 
member for bringing before this committee the Emergency Iron 
Dome Replenishment Act. Like so many, I am deeply troubled by 
the ongoing violence in Israel and the Palestinian territories 
and strongly condemn Hamas' use of rockets against the State of 
Israel and its despicable use of civilians, including women and 
children, as human shields to protect their military assets. My 
thoughts and prayers are with all the innocent civilians who 
live in danger as long as this conflict continues.
    There is no question that Israel has a right to defend 
itself against any attack on its sovereignty and its people. 
One of the reasons why Israel has been able to keep its 
civilian death count comparatively low is due to the 
effectiveness of the Iron Dome Antimissile Defense System, 
which intercepts dangerous rockets headed for Israeli 
population centers.
    Up until this point, the United States has provided over 
$700 million in foreign aid to Israel to support the Iron Dome. 
We have had the opportunity to see video of the Iron Dome at 
work, intercepting rockets midair.
    Since the beginning of the escalation of violence in June, 
Iron Dome has intercepted about 500 rockets, approximately 90 
percent of those rockets classified as threats. And the cost of 
these interceptions is very high, approximately $82,000.
    United States Secretary of Defense Chuck Hagel supports 
Israel's request for $225 million in supplemental funding for 
Iron Dome. And I am very proud that this committee is about to 
put some additional pressure on the appropriators to fund this 
lifesaving program. At the same time, I think we should use 
this opportunity to recognize that it has become even clearer 
than ever before that the United States has a vested interest 
in supporting a swift resolution to this crisis. Violence and 
revenge are never the answer and will only serve to undermine 
efforts to advance peace and security in the region.
    And I thank you, Mr. Chairman. With that, I yield back.
    Chairman Royce. Thank you, Mr. Cicilline.
    We now go to Mr. Cotton of Arkansas.
    Mr. Cotton. I want to speak in support of the Emergency 
Iron Dome Replenishment Act on behalf of two groups, Arkansans 
and America's troops. Arkansans living in places like El 
Dorado, Texarkana, Mena, and Huntsville would demand a system 
like Iron Dome if they were being attacked by Islamic 
terrorists across the borders of the State of Arkansas or 
invaded through tunnels coming into the State of Arkansas. They 
would demand that kind of swift action.
    They would also regret, as we all regret, civilian 
casualties, as we see today in Gaza. But we should all make no 
mistake that there is one party responsible for every single 
civilian casualty, and that is Hamas.
    Hamas commits double war crimes every day it attacks. It 
attacks Israeli civilians with indiscriminate rocket, missile, 
and mortar fire. And second, it sites its missiles and rockets 
and mortars at mosques and churches and synagogues and 
hospitals and schools.
    Hamas is not a country. It is not a legitimate negotiating 
partner. It is a terrorist organization that must be destroyed. 
And if world leaders want to stop civilian casualties, they 
would support Israel and its operation in Gaza, or perhaps they 
would fly to Damascus and demand that Bashar al-Assad stop his 
genocide. Or maybe fly to Baghdad and demand action to stop the 
cleansing of Christians out of Mosul. Or perhaps maybe fly to 
Moscow where Vladimir Putin is supplying thugs that are 
shooting civilian airliners out of the sky.
    Second, I want to thank or I want to support the Iron Dome 
Act on behalf of America's troops. In 2006, I was deployed with 
the 101st Airborne at Camp Falcon in Iraq. We took regular 
mortar and missile fire into our base. Unfortunately, there was 
little in the way of a defense against that fire. Our defense, 
jokingly, was big base, little bullet.
    One day American troops are going to face that same kind of 
fire coming into bases, and the Iron Dome will be there to save 
them. For that, we should all be proud of and supportive of 
this bill, and we should be thankful to our Israeli partners.
    Chairman Royce. We go now to Mr. Juan Vargas of California.
    Mr. Vargas. Thank you, Mr. Chairman. I, too, want to add my 
voice to those that have commented how this committee, Mr. 
Chairman, is led by you and Ranking Member Engel in a 
bipartisan way for the betterment of our country and our allies 
around the world.
    In particular, I want to thank you for bringing forth House 
Resolution 663 for a vote, and to thank my colleagues who have 
commented positively on this resolution. I introduced this 
resolution out of a deep concern for the plight of religious 
minorities in Iraq as the Sunni Islamist terrorist group ISIS 
began to expand its control of northwestern Iraq.
    In particular, after the fall of Mosul and the Nineveh 
plain region to these insurgents, the Iraqi Christian community 
began facing harassment, persecution, and displacement from 
their homes. The Iraqi Christian community has a long and rich 
history in the region, dating back thousands of years. And to 
lose their homeland during this humanitarian crisis would be a 
grave injustice. Since the fall of Saddam Hussein, over 50 
percent of Iraq's Christians have fled their historical 
homeland.
    I have been in contact with leaders in the Chaldean-
American community who have shared many disturbing stories of 
targeted persecution against their friends and loved ones back 
in Iraq. After ISIS established its control over northwestern 
Iraq and declared a caliphate, these Islamic terrorists warned 
Christians living under its jurisdiction to either convert to 
Islam, pay an outrageous religious tax, or be executed.
    Since this declaration, over 10,000 Iraqi Christians have 
packed their belongings and fled to neighboring communities in 
Kurdistan, Syria, Lebanon, and Jordan. The last 1500 families 
to leave were robbed at an ISIS checkpoint, and there are 
reports that there are no more Christians living in Mosul and 
certainly no more masses. This mass exodus represents the 
largest forced displacement in the Middle East since the 
Armenian genocide in Turkey about 100 years ago.
    We cannot be silent in the fact of this horrific crime 
against humanity, and I truly commend this committee for 
shedding a light on this important topic.
    This type of barbaric behavior is nothing new to ISIS. In 
Syria they burn churches and kidnap bishops in the Christian 
city of Maaloula. Their brutal intolerance is also a break from 
a long tradition of the Muslim/Christian coexistence of the 
region.
    ISIS has also set its targets on other religious 
minorities, Shiites and unsupported Sunnis. I strongly believe 
we must provide immediate protection and humanitarian 
assistance throughout the Nineveh plain to Iraq civilians 
fleeing this persecution.
    I also want to thank you, Mr. Chairman, and express my 
strong support for all the legislation presented today, 
especially the Iron Dome Replacement Act, which authorizes 
additional assistance to Israel for their Iron Dome Antimissile 
Defense System. I stand unequivocally with Israel as it defends 
its citizens from an onslaught of over 2,000 unprovoked rockets 
from Gaza since June 12th, 2014. While the Iron Dome is used to 
protect innocent Israel citizens from indiscriminate rocket 
fire, Hamas continues to cowardly use Palestinian civilians as 
human shields in order to protect their military arsenal.
    The atrocities occurring under Hamas are a clear violation 
of international humanitarian law and must be condemned by all 
nations. Thus, in light of the realities on the ground and 
Hamas' unwillingness to accept peace, I fully support Israel's 
ongoing operation to destroy Hamas' terror infrastructure. With 
the Iron Dome intercepting over 400 rockets in the last 6 
weeks, I fully support the supplemental funding before us today 
that will further enable these capabilities. Israel remains our 
stalwart ally in the region, and we must support their efforts 
to protect their civilians.
    I thank you again, Mr. Chairman, and I yield back.
    Chairman Royce. Thank you, Mr. Vargas. And again, we thank 
you. We want to express our appreciation for your authorship of 
the Iraqi religious minority resolution here.
    If I could exercise the chairman's prerogative and make a 
very brief announcement here? I usually don't announce events 
for members, but tomorrow we have a very important briefing. 
Many on this committee have been focused on the human rights 
disaster in Syria. Tomorrow we will have a truly exceptional 
briefing in this room with a Syrian defector who has taken tens 
of thousands of photos of the catalogued corpses of tortured 
Syrian political prisoners.
    And ``Caesar'' will testify in anonymity, in fear of Syrian 
authorities, but he will deliver a powerful message that what 
is happening in Syria is an unmitigated humanitarian disaster. 
He wanted to come and tell this story and he brings his photos. 
And I hope all members can attend.
    Thank you.
    And we go now to Mr. Schneider of Illinois.
    Mr. Schneider. Thank you, Mr. Chairman, for bringing us 
here today. But, also, let me associate myself with the 
previous remarks of many of my colleagues, thanking you, 
thanking the ranking member, for how this committee has 
conducted its business. And not just the two of you; I think 
all of the members of the committee have shown the ability to 
work together in a bipartisan way, making sure that we, as a 
committee, as a Congress, protect human interests around the 
globe, making sure we work toward better human rights and a 
more just world. So, it is an honor to serve with you, but this 
has been an example, I hope, for the rest of the Congress of 
how a committee can work.
    I am honored and proud to support all of the measures 
before us today. I commend Mr. Chabot for the Girls Count Act. 
As Mr. Engel said earlier, I know my grandmother, who came when 
she was five from Kiev, her birthday was marked by its 
association with Passover, but Passover moves on the calendar. 
So, we never knew her exact birthday. Giving young women or 
women around the world that identity is crucial.
    I also want to commend Mr. Sherman for the Naftali Fraenkel 
Rewards for Justice Act. I think it is crucial that we bring 
the perpetrators of that heinous crime to justice, and as soon 
as possible.
    Let me touch a little more deeply on the Iron Dome 
Replenishment Act. I had the privilege last year to visit 
Israel and visit the Iron Dome, meet with many of the officers, 
commanders in charge of the batteries.
    Sitting at lunch with them, I was next to an officer who 
shared a story, how he was a relatively-new father, and before 
Iron Dome, he sat during an air raid alert in a bomb shelter 
holding his newborn son to his chest and thinking of the threat 
and concerns, not just for his son, but for Israelis throughout 
the country.
    A couple of years later, he was able to join the troops 
that are manning the Iron Dome System, a system that was 
created in Israel but developed with U.S. financial support, 
and wouldn't be possible without our support. And he told how, 
in 2012, being in charge of an Iron Dome battery, how the 
difference in feeling, protecting his son, but knowing he was 
also protecting all Israelis throughout the country from the 
ongoing assault of rockets from Gaza.
    Since Israel unilaterally and completely withdrew from Gaza 
in 2005, 10,000 rockets have been fired indiscriminately at 
civilian targets inside Israel. Since just July 2008, over 
2,000 rockets have been fired at Israel. Air raid sirens ring 
out on average every 10 minutes, causing concern, causing 
worry, causing unnecessary and unremitting stress.
    Hamas is not shooting at military targets. Hamas is aiming 
directly at civilians, at homes, at schools, at hospitals. 
Hamas is acting in violation of international law by targeting 
civilians in Israel, but also by using civilians in Gaza as 
human shields to protect their rockets.
    The world needs to speak out. I am pleased to be joined in 
a letter to the UN by over 100 of my colleagues calling for 
those rockets, those stockpiles of rockets to be eliminated in 
Gaza.
    But, until they are eliminated, Iron Dome is shielding 
Israelis by reducing the impact of rockets and saving lives not 
just in Israel, but in Gaza, by allowing Israel to carefully 
and selectively target, knowing that their citizens are 
protected by the Iron Dome. I strongly support and am pleased 
to be a cosponsor of the bill making sure that the United 
States continues to fund this crucial weapon system, protection 
system.
    I would also like to speak directly to my good friend Juan 
Vargas and thank him for introducing the bill protecting 
religious minorities in Iraq. Mosul at its peak not too long 
ago had 60,000 Christians. It was a vibrant community. It was 
an important community.
    To hear today that there are no longer any Christians 
living in Mosul, as the world sits quietly by, is simply 
unacceptable. Religious minorities everywhere in the world must 
be protected. I am proud that this body today is standing up 
and speaking out in a strong voice, protecting religious 
minorities and, again, declaring our support for people around 
the world, and working to make this a better place.
    And with that, I yield back.
    Chairman Royce. Thank you.
    We go to Ms. Lois Frankel of Florida.
    Ms. Frankel. Thank you, Mr. Chair.
    First, I wanted to say that I support all the bills and 
resolutions before us today. And I, like my colleagues, thank 
the chair, the ranking member, for your bipartisan efforts, 
and, also, my colleagues for their bipartisan efforts.
    As to the terror attacks by Hamas on Israel, the Iron Dome 
will go a long way to help. With that said, Israel's defense 
must be more than the Iron Dome. And I would like to add a 
comment in this regard, Mr. Chair.
    The situation in Israel and Gaza is tragic and sorrowful, 
too many innocent men, women, and children on both sides of the 
border dying and suffering because of the terrorist actions of 
Hamas. I know that a permanent ceasefire is what decent, humane 
people would eventually hope for, but it cannot be 
unconditional. We cannot ask Israel to cease fire while Hamas 
maintains its infrastructure of destruction.
    And for that reason, Mr. Chair, I want to reaffirm my 
support and join my colleagues' support for Israel's right to 
defend its citizens, not only from the rocket attacks, but also 
from Hamas' tunnels of terror. No nation would accept the 
perpetual threat of terrorist launching attacks and kidnappings 
from underground tunnels.
    Since the beginning of Operation Protective Edge of the 
Israeli Defense Force, they have identified 32 sophisticated 
underground attack tunnels, each with multiple shafts and 
openings. The tunnels were built by Hamas for the sole purpose 
of infiltrating Israel in order to murder and kidnap Israeli 
civilians and soldiers.
    Last week 10 Hamas thugmen emerged from a tunnel near 
Israel's Kibbutz near Ahm and killed four Israeli soldiers 
before they were killed themselves and returned fire. Hamas 
militants have infiltrated Israel six times this month through 
hidden tunnels. Officials have reported that tunnels are 
stocked with tranquilizers, handcuffs, syringes, ropes, and 
other materials used for abductions. The tunnels also hold vast 
quantities of explosives and other military equipment meant to 
be used in mass casualty attacks.
    It is shocking to learn that Hamas has spent upwards of 
$100 million on these tunnels at the expense of Palestinians in 
Gaza. The Hamas leadership cares more about killing Israelis 
than it does about helping Palestinians.
    Construction materials delivered by Israel, meant for 
Palestinian civilians, have been systematically diverted by 
Hamas. Since the beginning of 2014 alone, more than 4,000 
trucks carrying 181,000 tons of gravel, iron, cement, wood, and 
other supplies have passed through Israel's Kerem Shalom 
crossing in Gaza. Yet, instead of building schools, clinics, 
and homes, Hamas has used much of the material to build tunnels 
aimed at annihilating Israel.
    And as I have said before, and I have heard my colleagues 
say today, Hamas is to blame for the violence in the Gaza and 
Israel, and they must be stopped.
    I thank you, Mr. Chair, and I yield back.
    Chairman Royce. Thank you, Ms. Frankel.
    Any other members seeking recognition?
    [No response.]
    Hearing no further requests for recognition, the question 
occurs on the items considered en bloc.
    Those in favor say aye.
    Those opposed no.
    In the opinion of the Chair, the ayes have it, and the 
measures considered en bloc, H.R. 3398, H.R. 5041, H.R. 5235, 
House Resolution 281, and House Resolution 683, are agreed to 
as amended.
    Without objection, each of the measures as amended is 
ordered favorably reported as a single amendment in the nature 
of a substitute. Staff is directed to make any technical and 
conforming changes.
    And that concludes our business for today.
    And I want to thank our ranking member, Mr. Engel, and all 
of our committee members for their contributions and assistance 
on these markups.
    This committee is adjourned.
    [Whereupon, at 11:15 a.m., the committee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


         Material Submitted for the Record

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 <all>

</pre></body></html>
